HHS/OIG, Audit - "Payments for Services to Deceased Recipients - Minnesota," (A-05-02-00068)
Department
of Health and Human Services
"Payments for Services to Deceased Recipients - Minnesota," (A-05-02-00068)
February 18, 2003
Complete Text of Report is available in PDF format
(138 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the audit was to determine if payments were made for medical
services provided after the recipients death. For the period October 1, 1998
through September 30, 2001, we concluded that the State agency had procedures
in place to ensure that payments related to such claimed services were recovered.
Accordingly, we determined that there were no reportable weaknesses in this
area.